<html>
<title> - ECONOMIC IMPACTS OF GLOBAL WARMING: GREEN COLLAR JOBS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
         ECONOMIC IMPACTS OF GLOBAL WARMING: GREEN COLLAR JOBS

=======================================================================


                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2007

                               __________

                            Serial No. 110-5


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
57-967                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                SELECT COMMITTEE ON ENERGY INDEPENDENCE

                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr.,
JAY INSLEE, Washington                 Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Hilda L. Solis, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, prepared statement..........................     8

                               Witnesses

Mr. Van Jones, President and Co-Founder, Ella Baker Center for 
  Human Rights, Oakland, CA......................................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................    53
Mr. Jerome Ringo, President of the Apollo Alliance...............    17
    Prepared statement...........................................    19
Ms. Elsa Barboza, Campaign Coordinator for the Strategic Concepts 
  in Organizing and Policy Education in Los Angeles, CA..........    23
    Prepared statement...........................................    25
Mr. Robert Thelen, Chief Training Officer of Capital Area 
  Michigan Works in Lansing, MI..................................    30
    Prepared statement...........................................    32
    Answers to submitted questions...............................    58

                           Submitted Material

Hon. Edward J. Markey, letter of May 22, 2007, from Mr. Gavin 
  Newsom, Mayor of San Francisco.................................    61


    HEARING ON ECONOMIC IMPACTS OF GLOBAL WARMING; GREEN COLLAR JOBS

                              ----------                              


                         TUESDAY, MAY 22, 2007

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:00 p.m., in Room 
2318 Rayburn House Office Building, Hon. Edward Markey 
[chairman of the Committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, Solis, 
Cleaver, Hall, Sensenbrenner, Shadegg, Sullivan and Miller.
    The Chairman. This hearing is called to order.
    Over the past five weeks, our Committee has examined some 
of the serious consequences of global warming and our oil 
dependence. We have heard how these two challenges threaten our 
national security, our economy, and our environment--all good 
reasons why we urgently need to implement policies that reduce 
global warming, pollution, and our oil consumption.
    Today we will examine another good reason to adopt policies 
that will green our economy--the opportunity to create new 
jobs. We will learn that actions which serve the national 
interest can also serve the public interest, and that smart 
policies can provide a pathway out of poverty and into a green 
economy.
    As we increase the energy efficiency and use the renewable 
energy of the United States, we will need green collar workers 
to create, manufacturer, install, and maintain these new clean 
technologies. The range of jobs and skills requirements is 
wide, but the potential employment impact is substantial. In a 
recent analysis, the Clean Tech Venture Network estimated that 
as many as 500,000 green collar jobs could be created by 2010.
    We know that green collar jobs are already growing and 
having a broad impact on the economy. As just one example, the 
U.S. ethanol industry clearly has already created 154,000 jobs 
throughout the nation's economy in 2005 alone, boosting 
household incomes by $5.7 billion. But that is just a fraction 
of the potential jobs and economic growth that the green 
economy promises.
    Even now workers trained for traditional jobs are 
translating their skill into green industries. Petroleum 
engineers have become biofuel entrepreneurs. Steel mill workers 
have become windmill makers. And roofers have become powerplant 
builders, as they install solar electricity shingles so that 
buildings can produce their own electricity.
    In many communities, green collar jobs will have multiple 
benefits. Pilot programs across the country are already using 
low-income weatherization programs to train people in the 
skills needed to upgrade the efficiency of buildings.
    Those families who increasingly struggle with the decision 
between heating and eating in the winter get warmer homes, 
lower energy bills, while trainees expand their job 
opportunities. In 2005, buildings accounted for nearly 40 
percent of global warming pollution in the United States. So by 
combining upgrading homes and job training, global warming 
pollution will go down and the employment prospects of some of 
our poorest workers will go up.
    In America, as we become more efficient and more reliant on 
renewable energy, the dirty power generation, which currently 
exists disproportionately in low-income areas can be replaced, 
including these communities. And the economic expansion 
promised by the green economy has the potential to bring large 
numbers of people out of poverty, while improving the 
environment and public health.
    As FDR said about The New Deal, the test of our progress as 
a nation is not whether we do more for those who already have 
much, but whether we provide for those who have too little. The 
same is true for the green deal America now needs. In the green 
economy, opportunities must be available for the many, not just 
the few.
    I look forward to learning from today's witnesses how the 
benefits of the green economy can be shared broadly. I now turn 
and recognize the gentleman from Wisconsin, the Ranking Member 
of the Committee, Mr. Sensenbrenner.
    [The statement of Mr. Markey follows:]
    [GRAPHIC] [TIFF OMITTED] 57967A.001
    
    [GRAPHIC] [TIFF OMITTED] 57967A.002
    
    Mr. Sensenbrenner.  Thank you very much, Mr. Chairman. 
Today's hearing is about jobs. Specifically, we are going to 
talk today about creating new jobs, a topic that Republicans 
know something about. Since Congress passed tax relief in 
August 2003, the economy has added 7.8 million jobs.
    I agree there is always room in the economy for more jobs 
and for better jobs, whether they are blue collar, white 
collar, or what seems to be the latest in workforce fashion 
green collar. We are likely to see today the Republicans and 
Democrats agree on the goal of job creation, but take different 
paths to reach that goal.
    I believe the free market forces of the private sector 
offer the best road to job creation. I think that relying on 
the government to create jobs is a dead end. One question I 
would like to see answered today is exactly what a green collar 
job is.
    One of our witnesses, Mr. Van Jones, wrote in Yes magazine 
that a green collar job includes construction work on a green 
building or even bicycle repair. Mr. Jones is devoted to 
creating more jobs and economic opportunities, and for that he 
is to be commended. He is also right to assert that some 
environmental projects will help create new jobs.
    But I do think it is important that we distinguish between 
the new jobs created to develop advanced technology and jobs 
that play a supporting role to green technology. The reason 
this is an important distinction is because part of today's 
focus is on government job training programs. Already the 
Federal Government spends $5.3 billion annually on job 
training. States together spend $500 to $700 million each year. 
But the business community spends up to $56 billion per year. 
That is $56 billion with a B.
    I am worried that by creating big government programs for 
so-called green collar job training what we really would be 
doing is simply duplicating the job training programs that 
already exist. It seems to me that many of the green collar 
jobs require the same blue collar skill sets that are already 
addressed by job training programs in both the public and 
private sectors.
    Is construction of a green building that fundamentally 
different than constructing a traditional building? Is 
installing a solar panel fundamentally different than 
installing a satellite dish? I have serious questions about 
what type of job training will really be needed for the so-
called green collar jobs.
    As Mr. Thelen says in his prepared testimony, with 
individuals who are in transition, it is tempting to encourage 
them to train for the next hot job, whether that is in health 
careers, information technology, or in this case green jobs.
    I think we need to be cautious about creating job training 
programs for jobs that don't yet exist. Thanks to the private 
sector, these jobs may be just around the corner, but we 
shouldn't rush to train the labor force for jobs that don't yet 
exist and may not require special training anyway.
    I do think that there are ways to promote jobs that are 
directly related to green technology. In fact, I joined 388 of 
my colleagues in the House last month to approve a bill that I 
believe will help promote more green jobs. It is called the 
10,000 Teachers, 10 Million Minds, Science and Math Scholarship 
Act.
    It will create a scholarship program to encourage college 
students to become math and science teachers. These teachers 
will help to train a highly skilled workforce in the future. I 
firmly believe that we must look to advance technology in order 
to address global warming issues, and it seems that I am not 
the only one who believes that technology will play a big role 
in climate change policy.
    Promoting advanced technology in hybrid cars is the number 
one point in the Apollo Alliance's plan for good jobs and 
energy independence. And I am happy that Mr. Jerome Ringo, 
Apollo Alliance's president, is here with us, and I look 
forward to hearing what types of advanced technology have 
captured his interest.
    In March, the Bank of America announced a $20 billion 
program that will finance green programs, including mortgages 
on green buildings. Not to be outdone, Citigroup announced in 
May a $50 billion 10-year program devoted to funding green 
projects. That is $70 billion for green projects without a 
single dollar coming from the taxpayers.
    Already many companies are talking about green initiatives, 
including Wal-mart, which recently announced it would place 
solar panels on at least 22 of their stores. If these companies 
need specially-trained employees, they certainly have the 
wherewithal to fund it on their own.
    Green collar jobs will be good for the economy, just like 
white and blue collar jobs. I think the private sector is 
already on the path toward putting people to work in the green 
collar jobs, but I am worried that more big government programs 
will only create a roadblock.
    I thank the chair and yield back the balance of my time.
    The Chairman.  The gentleman's time has expired.
    The gentlelady from California, Ms. Solis, is recognized.
    Ms. Solis.  Thank you, Mr. Chairman, and thank you for 
inviting our witnesses that we are going to hear from today. I 
am sure they are going to have a lot of good information for 
us. But I do want to say that when we talk about the growth and 
innovation of the greening of our country, we can't forget 
rural America or those low-income areas. So when we think about 
Silicon Valley, think about also East Los Angeles, the Bronx, 
and Missouri. So we need to be thinking big picture here.
    I would also like to say that a part of what I see or 
envision here in this new era is that the environmental 
industries that are experiencing major job growth--and I want 
to quote a paragraph from a letter that I just received from 
the Mayor of San Francisco, Mr. Newsome. He said that they are 
experiencing major job growth, which includes green buildings, 
energy efficiency retrofit and service, renewable energy such 
as wind, solar, and biofuels.
    Being service-intensive, these industries produce high-
quality jobs that are less vulnerable to outsourcing. I think a 
very, very important aspect of this is that we are trying to 
keep our jobs here within the parameters of the U.S.A. So I 
know we are going to hear about this.
    I am very excited about this opportunity and am looking at 
introducing legislation, along with my colleagues, Congressman 
Tierney, Congressman Miller, and Congressman McNerney, to see 
how we could better serve, retrain, retrofit our workers who 
have lost jobs that have gone overseas, to keep them here, and 
then address the issue of our youth, underserved youth who we 
seem to be losing. They can also be a big magnet in attracting 
new innovation and getting them more involved in the new 
technological future in the environment.
    So I look forward to hearing from you and yield back the 
balance of my time.
    The Chairman.  The gentlelady's time has expired.
    The chair recognizes the gentleman from Arizona.
    Mr. Shadegg.  I thank the Chairman. And other than to 
commend you for holding this hearing, and note that our vibrant 
economy is responding with lots of market alternatives to the 
green jobs and creating green jobs, and that there are forces 
out there to try to fill the void, I will waive my opening 
statement.
    The Chairman.  The gentleman waives his opening statement.
    The chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver.  Mr. Chairman, I would waive my comments and 
use it during my questioning.
    [Prepared statement of Mr. Cleaver follows:]
    [GRAPHIC] [TIFF OMITTED] 57967A.003
    
    The Chairman.  The chair recognizes the gentleman from New 
York, Mr. Hall.
    Mr. Hall.  Thank you, Mr. Chairman. I also look forward to 
hearing the testimony of our witnesses, and I waive my opening 
statement.
    The Chairman.  Great.
    I thought I saw Mr. Sullivan.
    So let me then--let me begin now by recognizing our first 
witness. He is the President and Founder of the Ella Baker 
Center for Human Rights in Oakland, California. Mr. Jones has 
spent his career advocating for social and environmental 
justice and can point to the city of Oakland's adoption of his 
Green Jobs Corps proposal as just one of his many successes.
    Mr. Jones, welcome. Whenever you are ready, please begin.

  STATEMENTS OF MR. VAN JONES, PRESIDENT AND CO-FOUNDER, ELLA 
BAKER CENTER FOR HUMAN RIGHTS, OAKLAND, CALIFORNIA; MR. JEROME 
RINGO, PRESIDENT, APOLLO ALLIANCE, LOUISIANA; MS. ELSA BARBOZA, 
 CAMPAIGN COORDINATOR FOR GREEN INDUSTRIES, STRATEGIC CONCEPTS 
   IN ORGANIZING AND POLICY EDUCATION (SCOPE), LOS ANGELES, 
CALIFORNIA; AND MR. BOB THELEN, CHIEF TRAINING OFFICER, CAPITAL 
             AREA MICHIGAN WORKS, LANSING, MICHIGAN

                     STATEMENT OF VAN JONES

    Mr. Jones.  Thank you very much, Mr. Chairman, and members. 
I am very glad to be here.
    Let me just jump right in. I really appreciated the 
comments from Mr. Sensenbrenner. I think they are right on 
point, and I want to get directly to them. First of all, I 
think all of us here can agree on at least three things. One is 
that, all things being equal, clean energy is better than dirty 
energy. We would rather have clean energy than dirty energy in 
our communities. It is more healthy for our children.
    Two, conserving energy is better than wasting it. The 
creator has given us so much energy we shouldn't just, you 
know, waste it the way we are doing right now. And, third, if 
there is a way, and a smart way, to get a reduction in both 
poverty and pollution, we can cut both poverty and pollution, 
we would be foolish not to do so. So I think those three values 
we all share. The question is: what is the proper role for 
government? What is the proper role for markets?
    I want to make an argument that there is a proper role for 
government moving forward. Number one, as we move from a dirty 
energy, wasteful economy, to a conservation-based clean energy 
economy, we automatically create more jobs. Why is that? We 
create more jobs because it takes more people to do energy the 
right way. If you want one megawatt of energy, and you want to 
use, say, natural gas to do it, which is the cleanest of all 
the dirty energy forms, one megawatt of energy will give you 
one job for an American worker. One job.
    If you don't go with the gas, and instead you go with 
geothermal or wind, you get six jobs. If you go with solar 
power, photovoltaic, you get 22 jobs. So you create the same 
amount of energy, but you create many, many more jobs. The 
problem that we have right now, contrary to some of your 
earlier concerns, is that our workforce development is actually 
lagging and lagging dramatically behind this opportunity.
    We have the opportunity to grow the jobs, but we are 
already encountering labor shortages in Northern California 
where the green economy is moving forward most dramatically. 
Community colleges are not prepared, our vocational training 
programs are not prepared, and what we are hearing from eco-
entrepreneurs themselves, the business leaders themselves in 
this field is that they are not getting the kinds of graduates 
from our programs that they need to be able to go to scale. So 
it is the business community from which we are hearing, at 
least in Northern California, that they need more help, they 
need better trained graduates.
    The challenge that we now face is that as you begin to meet 
the workforce development needs of the business community, the 
cities and local municipalities cannot retrofit ourselves fast 
enough. Our community colleges don't have the money, they don't 
have the resources to turn around on a dime and meet this need. 
We need federal help. We need--we recognize that the Federal 
Government does do some work for us, development. Frankly, it 
has been doing less and less over time. We think it is time now 
to begin to take advantage of this opportunity and to invest 
more and invest more dramatically.
    I also want to speak to Congresswoman Solis' point. This is 
the biggest opportunity that any of us will have to begin to 
create green pathways out of poverty, to begin to build a green 
economy that is strong enough to lift people out of poverty. I, 
for one, am conservative enough, I believe in work. I believe 
people should work their way out of poverty. But for too long 
we have been telling people in the neighborhoods where I work, 
you are supposed to climb out of poverty, a six-story ladder 
with three rungs on it.
    We have got to start putting rungs back on the ladder of 
opportunity, and this green economy, this explosion of 
opportunity, means that we can actually begin to build green 
pathways out of poverty. If you teach a young person how to put 
up solar panels, that young person is on his or her way to 
becoming a solar engineer, an electrical engineer. They can 
join the United Electrical Workers Union. That is a green 
pathway to a union job out of poverty.
    You teach a young person to double pane glass, so that 
building does not leak so much energy, that young person is now 
on the way to becoming a glazer. That is a union job. That is a 
green pathway out of poverty. And for too long the young people 
in this country have only heard one thing from us older folks, 
which is don't do drugs, don't shoot each other, don't get 
pregnant. And then we walk away from them, and we just leave 
them there to figure out, now what are they supposed to do.
    I hope that both parties will say to this generation of 
Americans, ``We have work for you to do.'' We want to reboot; 
we want to retrofit this whole economy. We want to do energy in 
this country in a clean way, and by doing it in a clean way we 
want to take that handgun out of your hand and put a caulk gun 
in your hand. We want to give you some hope and some 
opportunity to do something beautiful for your country.
    I think both parties should embrace that agenda. We don't 
have any throw-away resources. We don't have any throw-away 
species. We don't have any throw-away children or neighborhoods 
either.
    Thank you very much.
    [The prepared statement of Mr. Jones follows:]
    [GRAPHIC] [TIFF OMITTED] 57967A.004
    
    [GRAPHIC] [TIFF OMITTED] 57967A.005
    
    [GRAPHIC] [TIFF OMITTED] 57967A.006
    
    [GRAPHIC] [TIFF OMITTED] 57967A.007
    
    [GRAPHIC] [TIFF OMITTED] 57967A.008
    
    The Chairman.  Thank you, Mr. Jones, very much.
    Next, we are going to hear from Jerome Ringo. He is the 
President of the Apollo Alliance. He has been employed for more 
than 20 years in Louisiana's petrochemical industry. He has 
firsthand experience in the challenges faced by workers and the 
communities near chemical plants and the benefits that green 
collar jobs can offer American workers.
    We welcome you, Mr. Ringo. Whenever you are ready, please 
begin.

                   STATEMENT OF JEROME RINGO

    Mr. Ringo.  Thank you very much, Mr. Chairman, and thank 
you to the Committee for inviting us here today.
    The Apollo Alliance is a coalition of labor activists, 
business and environmentalists, faith community, what have you, 
who believe that our nation can and must achieve a triple 
bottom line, and that is profitability and markets for a 
growing, clean energy future industry, curbs on global warming 
pollution and good jobs for American families. We have got to 
bring jobs back to America, reduce our dependency on foreign 
oil, and get off the oil barrel that we have been held over by 
foreign countries.
    We at Apollo believe that the ambitious $300 billion in 
federal spending over 10 years could create three million new 
good jobs for America. It would be a big win, but to win big we 
need to set forth and place the specific policy supports that 
seize the economic growth in jobs creation potential of new 
technologies.
    We should view the development of a cap and trade system as 
an opportunity to create major job investment funds that would 
be used to develop more secure, home-grown energy supplies, and 
create those good jobs. Such programs would control global 
warming, pollution twice, once by capping pollution, then by 
supporting the new generation of clean power sources.
    For instance, we would very much like--we very much like 
the idea enshrined in Senator Bingaman's cap and trade bill to 
move and start the date of carbon auctions ahead of the start 
date for capping the emissions. That puts the horse properly in 
front of the cart by creating a new energy investment fund that 
could be used proactively to ease any employment issues that 
might arise later from global warming pollution controls.
    Likewise, we feel that we should match new regulations with 
positive job strategies. For instance, mandates to improve auto 
fuel economy should be packaged with the big retooling 
incentive to help the domestic auto industry transition to 
compete in the new marketplace. Also, any renewable energy 
standard will be more attractive if it is matched with loan 
guarantees for renewable energy manufacturing. That way we 
create jobs manufacturing wind turbines and solar panels, and 
at the same time the RES grows, and the market for renewable 
power.
    Our analysis estimates that a $300 billion investment would 
return $306 billion to the Treasury at the end of 10 years, so 
it pays for itself. And just a few suggestions on how we can 
ensure clean energy for good jobs investment fund delivers on 
its promise for good jobs for working Americans. First, we need 
to finance a big increase in clean energy research and 
development.
    I know both chambers are moving ARPA-E legislation. 
However, please make sure America captures the jobs by 
requiring that any new and successful technologies be licensed 
for development and commercialization first here in the United 
States. To the greatest extent, these technologies should use 
domestic materials.
    Second, we need to establish a long-term certainty in the 
clean energy market. It is widely observed that inconsistent 
federal incentives have been a major barrier to clean energy 
development. A two- to three-year time horizon simply does not 
provide the assurance that project developers and component 
manufacturers need to justify investment decisions.
    And, third, we want to match long-term market support with 
manufacturing incentives. As the market grows, so should our 
ability to produce clean energy systems and system components. 
Renewable energy is growing fast in the United States, but 
European and Asian manufacturers now account for more than 85 
percent of the global market. And we need to build up our 
renewable energy manufacturing by strengthening the Department 
of Energy's Loan Guarantee Program, so it supports 
manufacturing of proven energy technologies, not just pilot 
projects.
    And, finally, we must do more to prepare the workforce for 
a green economy. We are proud to support Senator Sanders' 
efforts to create a clean energy workforce development program. 
And Senator Sanders' bill would not only ensure that we have 
the skilled workforce to meet the challenge, but it would also 
make sure that the jobs created are going to be jobs that 
people deserve and need the most.
    And, Senator Solis, thank you, as she prepares counterpart 
legislation in the House. That legislation is crucially 
important to Apollo's strategy in creating clean energy and 
good jobs.
    The challenge for congressional leaders today will be to 
ensure that we all get there together, working men and women 
alongside industry, environmentalists, and our national 
security community.
    Thank you very much.
    [The prepared statement of Mr. Ringo follows:]
    [GRAPHIC] [TIFF OMITTED] 57967A.009
    
    [GRAPHIC] [TIFF OMITTED] 57967A.010
    
    [GRAPHIC] [TIFF OMITTED] 57967A.011
    
    [GRAPHIC] [TIFF OMITTED] 57967A.012
    
    The Chairman.  Thank you, Mr. Ringo, very much.
    Our next witness I would like to recognize is Elsa Barboza, 
the Campaign Coordinator for the Strategic Concepts in 
Organizing and Policy Education in Los Angeles. Her latest 
project involves developing a green career ladder training 
program to provide workers to upgrade the efficiencies of the 
L.A. city buildings.
    Ms. Barboza, thank you for your testimony this afternoon.

                   STATEMENT OF ELSA BARBOZA

    Ms. Barboza.  Good afternoon. My name is Elsa Barboza. I am 
representing SCOPE, a grass-roots organizing and policy 
institute in Los Angeles, and we convene a progressive alliance 
in Los Angeles called the Los Angeles Apollo Alliance. And what 
we are about is to take the second-largest U.S. city and shape 
its economy and transition its economy to a clean and 
sustainable and equitable economy, and to address poverty in 
Los Angeles.
    Thank you for having this hearing today on green jobs and 
global warming. It acknowledges that energy independence is a 
jobs issue. It is a workforce development issue. It is an 
equity issue.
    I just want to spend a little bit of time talking to you 
about what our green jobs campaign is, but let me give you the 
backdrop to the story. The backdrop is that in Los Angeles the 
low-income communities of color, like South Los Angeles, like 
East Los Angeles, face the same underlying systemic trends as 
other low-income major cities, other low-income communities in 
major cities. Economic restructuring and globalization, so 
those high-wage, long-term union jobs have been lost, and they 
have been replaced by low-wage, short-term temporary jobs.
    Shifts in public policy have rolled back the changes that 
have been made. Increased division along geographic racial and 
income lines resulting in 30 years of disinvestment in low-
income and communities of color. Severe environmental inequity 
and crisis-level health impacts in poor communities. So 
according to the World Health Organization, in the United 
States such groups such as the inner city poor have extremely 
poor health, poor characteristic--more characteristic of a 
poor, developing country rather than a rich, industrialized 
one.
    I will skip over all of the data that talks about how one 
in four Latinos and African-Americans live in poverty. With all 
of that as a backdrop, we have--we are contributing to growing 
to the job sector of the green industry in Los Angeles. The 
L.A. Apollo Alliance is focusing political power toward shaping 
and transitioning to the new economy.
    Just in L.A. alone, billions of dollars in development are 
in the works right now for Los Angeles for the next two, five, 
ten years. In February of 2006, 23 labor community 
environmental groups came together to make sure that that 
development is going to be green. So we came together to create 
quality jobs in the new green industry and focus on the 
unionization of the new economy to ensure livable wage jobs and 
benefits for families.
    And we also came together to focus on the workforce 
development, training, and access for communities of color in 
low-income communities, to lead and establish the needed work 
to make the move to a clean energy economy. So our vision is to 
create a pipeline that upgrades the skills of existing workers, 
backfills with new workers, and addresses the basic skills gap 
of low-income communities of color.
    Connecting to union apprenticeships, where there is a job 
at the end of the training, so that we are not doing training 
just for training's sake; that we are creating healthier and 
safer communities and prioritizing the environmental uplift of 
inner city communities, and impacting the public sector to take 
leadership and grow and show a critical mass of results to move 
into the private sector.
    L.A. is unique in the level of collaboration and political 
leadership. We are poised to contribute a critical piece of the 
national strategy. Los Angeles' Mayor Antonio Veragosa and 
other City Council members have committed to a partnership to 
shape a new economy in Los Angeles.
    Two things. One is the level of public education and 
organizing in Los Angeles is high. We collected over 6,000 
signatures from Angelinos calling for this new economy. Over 
15,000 Angelinos were educated and mobilized to vote using this 
division in the mission of the Apollo Alliance to gauge 
California propositions last fall.
    Why is there such a resonance? Because this really is a 
catapult to large-scale job creation in Los Angeles and in the 
country. It is a way to link community members to union jobs 
and other type jobs, as well as to promote environmental 
benefits of what is needed today. So how we are able to put 
together the progressive majority in Los Angeles, and in the 
country, we think that we have a model to do that.
    Our first campaign is around conducting an energy audit of 
city buildings to identify the sites and job potential, to make 
them energy and water efficient with those technologies, to 
create 2,000 union jobs, to establish policies to see the 
development of local green building manufacturing in Los 
Angeles, and to establish a green career ladder training 
program to connect inner city communities to green jobs.
    And this is all in the short term. So the possibilities for 
the green economy to help reshape our country and the major 
cities is vast.
    Thank you very much.
    [The prepared statement of Ms. Barboza follows:]
    [GRAPHIC] [TIFF OMITTED] 57967A.013
    
    [GRAPHIC] [TIFF OMITTED] 57967A.014
    
    [GRAPHIC] [TIFF OMITTED] 57967A.015
    
    [GRAPHIC] [TIFF OMITTED] 57967A.016
    
    [GRAPHIC] [TIFF OMITTED] 57967A.017
    
    The Chairman.  Thank you very much, Ms. Barboza.
    And our final witness is Robert Thelen. He is the Chief 
Training Officer of Capital Area Michigan Works in Lansing, 
Michigan. Mr. Thelen has spent 35 years working with economic 
and workforce development programs and has vast experience with 
the needs of workers retraining for new careers.
    Thank you for your testimony this afternoon, Mr. Thelen. 
Would you turn on your microphone, please?

                    STATEMENT OF BOB THELEN

    Mr. Thelen.  Chairman Markey, Ranking Member Sensenbrenner, 
and distinguished members of the Committee, I am Bob Thelen, 
and I do appreciate being here today.
    Our mission at Capital Area Michigan works is to enhance 
the quality and productivity of people and businesses by 
providing a world of occupational choices. But what is the 
potential for green collar jobs in the United States?
    An environmentally conscious population is looking for 
responsible corporations who reduce, reuse, and recycle. They 
want to give these corporations their business, and, as a 
result, businesses are enjoying gains in brand-name recognition 
and consumer confidence.
    As world recognition increases the need for environmentally 
friendly lifestyles, many businesses are recognizing that 
staying in business has much to do with environmental 
responsiveness for consumers who are supporting the products 
and services that they deem to be environmentally friendly. I 
give specific examples in my testimony.
    We know that the employers that will keep America running 
in the future--and that will be important to the bottom line of 
America's corporations--are those who have an understanding of 
environmental needs and specific business processes related to 
their needs.
    One of my areas of interest and where I have spent my 
career is helping young people and adults develop their career 
plans, and for adults who are dealing with transition, helped 
them move through that transition. We know that young people 
will be involved in eight to ten different careers during their 
lifetime. It is particularly vital that we understand the 
changes in our labor market and how we prepare individuals to 
enter and reenter the labor market.
    I think many of these green collar jobs are being filled by 
individuals with an existing set of knowledges and skills who 
are now choosing to apply these skills and knowledges to a new 
sector of the economy, i.e. green industries. This past winter 
I had an opportunity to spend a week in a training program at 
an ethanol facility, and it was very enlightening.
    And as I was reflecting on this, I realized that the 
typical ethanol facility has about 37 to 38 employees. Of those 
38 employees, 32 of them were involved in--were traditional 
manufacturing job classifications, such as maintenance and 
repair workers, equipment operators, and transportation and 
material movers.
    The industries in which these individuals are applying 
their skills and knowledges may be new. However, the necessary 
knowledges and skills are not entirely new.
    And I noticed this: I went out to some of the green job 
boards, and I noticed the titles of the jobs that people were 
recruiting for were very traditional job titles, such as CFO, 
corporate attorney, technical services director. I even noticed 
that the company I worked for in college as a tree trimmer is 
now listed under green industry jobs.
    So in most cases we are not preparing people for green 
collar jobs. We are preparing people for jobs that, at this 
stage in their life, they are applying their skills to needs of 
industry that is focused on environmental concerns. As an 
example, a lab technician, who today works at a brewery, 
tomorrow may choose to work at an ethanol facility--a true 
example--and the person at the ethanol facility, he went to 
work for Seagrams. So go figure.
    So how do we understand and address these green jobs? I 
think the most critical thing is helping people like myself, 
our teachers, our workforce people, understand, what are these 
jobs? Are there some new jobs, or are many of them just 
transition--or just sort of places where people are applying a 
traditional set of skills in a new environment? So we need to 
figure out how to inform teachers.
    The main thing as I work with teachers and counselors is I 
am helping them use quality career information. We have to 
ensure that this information is out there, and the main way we 
do that is through federal publications, such as ONET, Career 
Infonet, and systems like that that are out there supported by 
the Federal Government.
    With students who are currently in high school or college, 
they have a longer timeframe. But it is so important we help 
these kids understand how they connect what they are learning 
in school to these real-world applications. We know that kids 
today who are in school must have high-quality jobs.
    Let me just close with this. In closing, I would like to 
reflect on what a 16-year-old student told me about 35 years 
ago when I asked him what he wanted to do. What he said to me 
is as appropriate today as it was then. ``Don't ask me what I 
want to do until you show me what there is to do.'' Our 
responsibility is to help students connect academic studies to 
real-world jobs.
    Thank you very much, Chairman.
    [The prepared statement of Mr. Thelen follows:]
    [GRAPHIC] [TIFF OMITTED] 57967A.018
    
    [GRAPHIC] [TIFF OMITTED] 57967A.019
    
    [GRAPHIC] [TIFF OMITTED] 57967A.020
    
    [GRAPHIC] [TIFF OMITTED] 57967A.021
    
    [GRAPHIC] [TIFF OMITTED] 57967A.022
    
    [GRAPHIC] [TIFF OMITTED] 57967A.023
    
    [GRAPHIC] [TIFF OMITTED] 57967A.024
    
    [GRAPHIC] [TIFF OMITTED] 57967A.025
    
    [GRAPHIC] [TIFF OMITTED] 57967A.026
    
    The Chairman.  Thank you, Mr. Thelen, very much.
    And now we will turn and recognize members of the 
Subcommittee to ask questions. I first recognize the gentlelady 
from California, Ms. Solis.
    Ms. Solis.  Thank you, Mr. Chairman.
    I would like to direct my question to Ms. Barboza. Thank 
you for talking about some of the barriers that you face out in 
South Los Angeles as well as East Los Angeles. Could you 
describe for this Committee how you go about engaging that 
community, so that they also understand the kinds of 
opportunities or challenges that they need to be ready for, and 
how you help prepare them?
    Ms. Barboza.  We involve community members in policy 
development, and then helping to--so part of what that looks 
like is going door to door and talking to people about what 
have been the job barriers and the workforce development 
barriers. Lots of people have been through a job training 
program. Lots of people get a job training certificate, but a 
lot of people--but a lot of training programs are not focused 
around actual training programs that result in a good-paying 
job.
    So we try to take people's experience and help to develop 
good training programs that are based on targeted industries 
that pay a high wage and a livable wage. We also do voter 
education as well, so to make sure that folks--and the values 
that we believe in and the issues that we think are important, 
that we take that to the ballot and we take those values to the 
ballot as well.
    Ms. Solis.  If you could, and this is for the whole panel, 
what two concrete steps could the Federal Government take to 
help ensure that our workforce and our communities advance with 
technology? And I will start with Mr. Jones.
    Mr. Jones.  Great. Well, before I get to that question, I 
just wanted to make sure--Mr. Sensenbrenner had asked a couple 
of questions that I didn't get a chance to get to in my 
testimony. I wanted to make sure that you feel that you are 
getting taken care of by this panel.
    You asked what a green collar job is, and it came up on the 
panel as well. And there is a concern I think some people have 
this is just a bunch of hype, right? This is just another fancy 
way to package up, you know, traditional work. I want to be 
very clear: it is not. We are talking about new categories of 
work that, frankly, is stumping people who have been in the 
workforce for a while, let alone new entrants.
    For instance, geothermal heat pump jobs. That is not 
traditional HVAC. That is a new category of work to get homes 
heated and cooled by the earth. It is almost like using 
antifreeze in a house, very new stuff. Solar water heaters, 
somebody--you asked a question, is it any different to put up a 
solar panel than to put up a----
    The Chairman.  Mr. Jones.
    Mr. Jones.  Yes.
    The Chairman. I am going to recognize Mr. Sensenbrenner----
    Mr. Jones.  Sure.
    The Chairman [continuing]. In two minutes and 18 seconds.
    Mr. Jones.  Sorry. Okay, good.
    [Laughter.]
    The Chairman.  If you could answer Ms. Solis' question----
    Mr. Jones.  All right.
    The Chairman [continuing]. That would be helpful.
    Mr. Jones.  That would be two concrete steps.
    Number one, do not leave cities and communities out on 
their own to try to figure out how to turn around our public 
schools and our vocational schools to meet this opportunity. 
The Federal Government needs to put money on the table to 
invest in us to be able to help our kids meet these 
opportunities.
    Number two, recognize that the new business community, the 
new eco-entrepreneurs, they are not as sophisticated as the 
established businesses. They don't know how to come interact 
with you and ask you for what they need. So recognize that in 
order to help business, the new American business, you are 
going to have to meet them halfway, interact with them, engage 
with them.
    Don't assume that the voices of business that you are 
hearing are the voices of American business in total. There are 
new businesses now that need your help in a new way. Listen to 
them.
    Mr. Ringo.  This Committee is a Committee on--Select 
Committee on Energy Independence and Global Warming. And when 
you talk about what you can do, what you can do addresses both 
areas; one, when we talk about global warming, and we talk 
about work, building a workforce as a result of dealing with 
issues like global warming, energy independence.
    We have got to--you can level the playing field with 
respect to the good jobs and the training for those people that 
have been in the past disproportionately impacted by global 
warming, and that is mainly the poor and the people of color.
    I live in Louisiana. I am an evacuee of Hurricane Rita. And 
today I think it is going to be announced the activity for the 
upcoming hurricane season, which will probably be more active 
than last year. We didn't even get one that hit the United 
States last year. We didn't have one to do that.
    But when we talk about the intensity of those storms due to 
global warming, and then what do we do about reducing that 
impact on the environment and benefit from it, we want to make 
sure that those people that are disproportionately impacted 
also can get a piece of the pie with respect to the benefits of 
the new jobs and what have you.
    Surely, we talk about in building a green economy that 
there will be jobs created in retrofitted assembly lines to 
build hybrid cars, but poor people can't afford hybrid cars. 
Poor people can't afford to buy a Prius. And so, therefore, 
there must be legislation taking place by the gatekeepers--you, 
the policymakers--that are going to level the playing field and 
make it easier for the poor to reap the benefits of the good 
jobs and the training, and also not be disproportionately 
adversely impacted as they have been in the past.
    Ms. Solis.  So we might have to target some of that funding 
to these kinds of particular rural or city/inner city areas.
    Mr. Ringo.  Absolutely.
    The Chairman.  The gentlelady's time has expired.
    The chair recognizes the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    Mr. Sensenbrenner.  Thank you, Mr. Chairman.
    I have a comment for Ms. Barboza, and then a couple of 
questions for Mr. Ringo. Ms. Barboza, I listened to your 
testimony and the answers the previous questions quite 
carefully. And you seem to be advocating using tax dollars for 
community organizers, voter education program, and electoral 
and union organizing.
    I don't think that tax dollars should be used for that 
purpose, because it is designed to achieve a political 
advantage rather than to train people to do jobs, whether it is 
green collar jobs or any other kind of jobs. And I would hope 
that you would rethink what your organization is doing, because 
I don't think you are helping poor people get jobs by training 
them to be community organizers. You may end up winning a 
referendum question or electing somebody, but I don't think 
that that is what we have in mind in terms of providing job 
retraining funds.
    That being said, Mr. Ringo, nuclear powerplants have on 
average 400 to 700 jobs, depending upon how big they are, and 
these jobs pay an average of 36 percent higher than the average 
wages and salaries in local areas. Would you agree that these 
are green jobs, because nuclear power doesn't omit any 
greenhouse gases?
    Mr. Ringo.  Well, I believe that it is important as we go 
into this new green economy that we diversify our energy 
portfolio, but we diversify that portfolio with energy means 
that would not have adverse consequences to us. We don't want 
to switch seats on a sinking ship. And I am not saying I am 
anti-nuclear, but I believe that nuclear has a place on that 
portfolio list if we can guarantee that spent nuclear waste can 
be properly disposed, and we don't create adverse impacts on 
both the environment and people, as well as coal or other 
industries.
    Mr. Sensenbrenner.  Okay.
    Mr. Ringo.  So sure, you can create green jobs from them, 
but we want to make sure that those jobs are not jobs that are 
going to----
    Mr. Sensenbrenner. Now----
    Mr. Ringo [continuing]. Equate into adverse consequences.
    Mr. Sensenbrenner.  Now, that is fair enough. We do have a 
cap and trade system in existence in Europe, and one can buy 
carbon credits from that. The bottom has dropped out of the 
carbon credit market in Europe in the last six to eight months 
or so.
    I am concerned that the thrust of your testimony appears to 
be that we would be financing these green trading programs on 
the revenue that would be obtained through carbon credits. 
Don't you think that is a little risky, given the volatility of 
the carbon credit market where it has been tried?
    Mr. Ringo.  Well, you are right. The carbon credit market 
in Europe has been challenged, and I think that we have just 
got to find effective ways to generate the necessary revenue 
that it takes to invest in research and development, but also, 
as I said, level the playing field.
    You know, we are in our infancy with respect to what will 
work, and I think that it is important that organizations like 
myself, like Apollo Alliance and other organizations, give real 
considerations to, as I mentioned before, investing in ideas 
that will not have adverse impact on the economy or on this 
country as a whole. You know, if it is not working in Europe, 
it does not mean it is not going to work here. But it is surely 
worth a try and worth the investment for us to see if we can 
find meaningful revenues to stimulate our economy and to level 
that playing field.
    Mr. Sensenbrenner.  I have one final question, and that is 
on the issue of CAFE standards for autos.
    Mr. Ringo.  Yes.
    Mr. Sensenbrenner.  In your statement, you mentioned you 
support retooling incentives for the auto industry.
    Mr. Ringo.  Yes.
    Mr. Sensenbrenner. Would you support CAFE standards being 
higher for the auto industry without the retooling standards 
even though it might cost unionized autoworkers their jobs?
    Mr. Ringo. Again, I am talking about a level playing field. 
It makes no sense to me to have standards that are going to 
have adverse consequences, and I believe that if--I believe 
that standards are important, but standards should not cost 
jobs.
    Mr. Sensenbrenner. Okay.
    Mr. Ringo. And so we strongly support the idea of 
standards, but let us make sure that we don't create casualties 
as a result.
    Mr. Sensenbrenner. I thank the gentleman. I yield back the 
balance of my time.
    The Chairman. The gentleman's time has expired.
    The chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    This has been a very interesting Committee hearing, as all 
of them have been thus far, and very instructive and 
informative. The issues that I think have been placed on the 
table today are ones that may be ideological as much as they 
are climatological, because we are actually dealing with 
whether or not the government has a role, and then how deeply 
should the government go in dealing with climate change and the 
industry that could be developed from it.
    If we talk about--and Ms. Barboza mentioned this, I think 
all of you hit on it a little--if we are talking about turning 
loose this great American ingenuity to create another 
industrial age, and this time minorities would have an 
opportunity to participate as the door opens as opposed to as 
it closed at the beginning of the 20th century, but when we 
talk like that, what inevitably surfaces is the ideological 
issue, and that is, well, you know, is this a jobs program? Is 
this, you know, some kind of social program?
    And I left the Committee hearing last week and went outside 
and two young men whom God loves stopped me and went off about 
how much of a hoax this whole issue is. And so if we are 
talking about taking advantage of this new technology or 
advancing a new technology, does it not present all kinds of 
issues that we have got to get beyond before we can make the 
kind of progress that we need?
    Mr. Jones.
    Mr. Jones.  My great hope is that this is the one issue 
that we can be one country about. This really is the 
opportunity. At this point, nobody is proposing that the 
government is going to come in and fix it. What we are saying 
is we want to set our eco-entrepreneurs up to succeed. We want 
to give the ecological entrepreneurs a world-class--as our 
colleague said, a world-class workforce, so they can meet a 
world-class challenge.
    Now, I can't imagine that anybody here thinks that the 
government has no role in education. I think all of us agree 
that one of the great strengths of the American system is that 
we do have a public education system, and that we have invested 
in it. What I hope will happen is that we will use what we 
already agree on, which is that young people and displaced, our 
veterans coming home, deserve an opportunity to get well 
trained to be a part of this new opportunity. I hope that this 
green wave can lift all boats.
    Mr. Cleaver. I agree with you. But if we start--the moment 
we say it has great opportunity for minorities, for whatever 
reason, that also----
    Mr. Jones. Well, I think that--we have now decided I think 
as a country that affirmative action is something we are moving 
away from. I think we have decided as a country that we see----
    Mr. Cleaver. Well----
    Mr. Jones. I am just--I think it is unfortunate. I am a 
product of affirmative action. I went to college and everything 
else on minority scholarships, but it seems to me that that is 
something that we don't want anymore. It seems to me that we 
are concerned about welfare.
    At some point, there has to be a ladder of opportunity that 
we hold for people. Let them climb that ladder, but there has 
got to be a ladder of opportunity. I think this is our best 
opportunity to build that ladder, and I hope that we can be one 
country on this. If we can't be one country on this----
    Mr. Cleaver. Let me ask--thank you. Let me ask--go ahead, 
Ms. Barboza.
    Ms. Barboza. Well, put the ideological aside, I mean, I 
think that federal policy needs to include policy that is based 
on data, and that data needs to talk about creating policy 
based on the labor market trends. And so look at that from the 
climate change, energy independence way, and look at that labor 
market.
    Do long-term planning for equitable economic development 
that creates quality job opportunities where there are jobs, 
where the are interventions that can be made, look at and 
support workforce development to ensure hard skills training to 
address the skills gap. We all know there is a skills gap in 
this country. Supportive services and support overall regional 
economic development strategy, and that is really what this is 
about is that this isn't just an environmental issue, but this 
is an economic issue, and we need to create federal policy that 
is based on all of those.
    Mr. Cleaver. Thank you. Are any of you familiar with the 
Chicago Climate Exchange?
    Mr. Jones. None of us are experts on it, but----
    Mr. Cleaver. The truth of the matter is, we would not even 
be selling ethanol at the few stations in this country where it 
is sold but for the federal subsidy. Without the federal 
subsidy, this would not be anything going on in this country.
    I guess the point I am making is that the Federal 
Government has a history of always stepping in to launch 
projects and programs that are in the interest of the 
government. And I am not--in the interest of the country. I am 
not suggesting that we just open up the bank and say, you know, 
anybody with a green thumb come in and take as much as you can 
get in a wheelbarrow. But do you not believe that the Federal 
Government should play a major role in getting us off into a 
new direction with regard to green technology?
    Mr. Jones. Yes.
    Mr. Ringo.  Absolutely. And by virtue of the opportunity, 
we are faced with an opportunity, as Van Jones mentioned, that 
we have never been faced within our history. Not only--and it 
is an opportunity driven by the events of our time, under the 
umbrella of global warming. We are seeing events associated 
with global warming that are unprecedented that are affecting 
the lives of people in a way like it never has before. Katrina 
was that example.
    The gas prices at the gas pump are a prime example. Being 
held over the oil barrel by foreign governments with respect to 
our dependency on foreign oil is a prime example. And so this 
is a galvanizing issue that can galvanize America, and there 
could be benefits from it that puts America back to work again, 
stimulates our economy in a way like it has never been before. 
We are going to create a new green economy.
    As I keep alluding to, we have just got to make it a level 
playing field to where all America benefits from the solutions 
that we are pursuing. That has not always been done in the 
past, but we have an opportunity to do it now. It will require 
some government intervention.
    The Chairman.  The gentleman's time has expired.
    Mr. Cleaver.  Thank you, Mr. Chairman.
    The Chairman.  I have been informed that there are five 
roll calls on the House floor. We have time to recognize Mr. 
Shadegg for his questions.
    Mr. Shadegg.  I will waive.
    The Chairman.  We can recognize, then, the gentlelady from 
Michigan for her time, but then we will have to recess and come 
back, if that would be the wish of the members, for any 
additional members. Would that be the wish of the Committee, to 
come back?
    Mr. Hall. I will submit written comments.
    The Chairman.  All right. We will ask the indulgence of the 
witnesses to stay here, then, for about 25 minutes. I will 
return. If any members return, I will recognize them. And if 
they do not, then I will ask my questions, and then the hearing 
will end.
    The chair recognizes the gentlelady from Michigan, Ms. 
Miller, for five minutes.
    Ms. Miller.  Thank you, Mr. Chairman. I will try to be 
brief here.
    I was just very, very pleasantly--I shouldn't say 
surprised, but it was pleasant to hear Mr. Ringo say that--and 
I wrote this down--that standards should not cost jobs. And you 
were responding to Mr. Sensenbrenner's question about CAFE 
standards, and, of course, higher CAFE standards are absolutely 
going to cost jobs.
    And I am just wondering if you could flesh out for me a bit 
when you talked about supporting retooling incentives, or 
perhaps a question for any of you, what incentive the Federal 
Government could actually provide to devise some assistance for 
the Big Three for the auto jobs that will be lost when the 
higher CAFE standards happen.
    Mr. Ringo.  Well, when you talk about a new green economy, 
and surely I think when we talk about a new green economy we 
are talking about good jobs, but we are talking about new jobs, 
and there are going to be opportunities for new jobs that are 
going to take the place of those lost jobs.
    Now, I am surely not saying that there will be an automatic 
major job loss because of CAFE standards. What I am saying is 
that there has to be a balance in that we do not overregulate 
ourselves to where it does cost jobs. I think that we will have 
to make the necessary adjustment to minimize the economic 
impact.
    But for those that lose their jobs, we are looking at a 
creation of new good jobs in the area as a result of the 
research and development of new alternatives that would keep 
America working. It doesn't necessarily mean that they will 
keep the same jobs they have. Some people will lose jobs, but 
at least they won't remain unemployed. There will be new 
opportunities for new jobs if we promote this research and 
development.
    And because there is a sense of urgency to do something 
when you talk about global warming, and the increase of carbon 
dioxide to the atmosphere, there is a sense of urgency. We have 
got to respond, because we have not responded properly in the 
past.
    Ms. Miller.  I appreciate that. So do you think it is 
appropriate, then, for the Federal Government to assist the Big 
Three as they transition from what will be most certainly a 
loss of jobs because of higher CAFE standards?
    Mr. Ringo.  I think the----
    Ms. Miller.  Maybe any of you could answer.
    Mr. Ringo.  I think the responsibility of the American 
government is to assist creation of new jobs which would 
benefit the Big Three as well as any other job losses that 
occur in any field anywhere in the country.
    Ms. Miller.  Do any of the rest of you have a comment on 
that? Mr. Jones?
    Mr. Jones.  Yes, this is a tough one, obviously. I think 
two things. One, it is really not clear to me--and I am not 
being ideological about it. It is really not clear to me that 
the CAFE standard, changing that is going to cost jobs. I know 
that people are trying desperately to buy hybrids, they are 
trying desperately to buy more fuel efficient cars. I think 
that we could be actually, you know, seeing a renaissance for 
Detroit by giving Detroit the encouragement to do what really I 
think there is a pent-up market demand for anyway, number one.
    Number two----
    Ms. Miller.  ``The encouragement'' meaning the Federal 
Government encouraging them?
    Mr. Jones.  Yes, ma'am. Yes.
    Ms. Miller.  So you are talking about federal----
    Mr. Jones.  At this point, we are talking sort of in 
theoretical terms. So I am saying that I just want to challenge 
gently your assumption that changing the CAFE standards would 
create huge dropoffs. I am not convinced that that is true. It 
could be true; it could not be true. I just want to challenge 
it gently.
    But the other point I want to make is simply this. Detroit 
is hurting. The health care bills that the Big Three are 
carrying are tremendous. I don't--they get kind of termed as a 
political football. To me, Detroit is not a political football. 
I have got family there.
    I think that we have got to do a better job of helping 
Detroit deal with some of these legacy costs, help Detroit 
catch up to where I think the pent-up market demand is. Now, 
how we help, we may disagree, but I like the idea of health 
care, you know, for hybrids, that kind of a tradeoff where we 
maybe help Detroit with some of their health care costs if they 
are willing to transition over.
    We have got to be smarter about how we partner with our 
business community, both the new eco-entrepreneurs and those 
existing businesses that want to go in the green direction. I 
don't have the final answer on that, but I do think that we 
should not retreat into ideological camps on this. It is too 
important for working people in Detroit.
    Ms. Miller.  You know, just one other question, and, Mr. 
Thelen, I appreciate you being here as well. But it is--I think 
it is clear from all of the studies, at least all of the 
domestic autos believe it, the United Auto Workers believe that 
they will--this will cost a huge job loss. Are you working with 
the UAW to assist some of these displaced auto workers which 
are just about to happen here with these higher CAFE standards, 
thousands, hundreds of thousands perhaps?
    Mr. Thelen.  Yes. I have spent the last 15 years of my life 
working with UAW in one capacity. We have developed world-class 
training programs with them, and, really, have worked with a 
lot of UAW folks as they go into--as they go through a 
transition. It is very difficult.
    They have been used to a lifestyle, in terms of a wage, and 
it is hard for many of these people to understand that there is 
a different market out there than what they have been involved 
with for 25 years in terms of what they--how the market values 
their skill set. And so the only way they will get back up is 
if they increase their skills.
    The Chairman.  I apologize to the gentlelady. I wanted to--
--
    Ms. Miller.  Thank you, Mr. Chairman.
    The Chairman.  I wanted to give Mr. Hall just two minutes, 
so he could ask his question, and then that is all the time we 
will have left.
    Mr. Hall.  Thank you, Mr. Chairman.
    The Chairman.  Two minutes.
    Mr. Hall.  Just quickly, I have had a number of 
conversations with the UAW folks in my neck of the woods who 
are--who share the opinion that I hold, which is that the 
decisions made by management have drastically hurt the American 
auto industry. And believe me, it is struggling without our 
giving them any further encouragement or direction.
    I think that it would help if they were encouraged to make 
the kind of cars that their own employees would like to drive, 
not what the Madison Avenue power and speed and sexiness lobby 
and the whole advertising business wants them to try to sell 
us.
    I also wanted to comment regarding nuclear power being 
green. I hold that it is not. It is not renewable, it is not 
green, it is not new, it is not alternative. It is a 50-year-
old technology, and were it not for giant subsidies from this 
government, including insuring every nuclear plant, the 
taxpayer insures via the Price Anderson Act every nuclear plant 
in the country, there would never have been a single plant 
built, because they can't stand up in the market.
    And they still can't stand up in the market, so I 
personally--I have one in my district that is leaking 
strontium-90 and tritium into the--not just the groundwater and 
the Hudson River but now into the sewer system of the town of 
Buchanan where the plant sits. So that is supposedly a closed 
system.
    If it can leak into the sewer system, which just came out 
last week, and possibly into the water system, into people's 
wells, and so on, and we don't need terrorism when we have got 
leaking nuclear plants in our neighborhoods, not to mention the 
fact that Mohammad Atta wrote about this plant as a potential 
target in papers that were found after 9/11.
    So I look forward to what I think will be a development 
across the board from high-tech all the way to low-tech 
installation of passive solar and that sort of thing.
    And I thank the Chairman for the time.
    The Chairman.  Great. The gentleman's time has expired.
    There are three minutes left on the House floor for this 
roll call. The hearing will recess for about 20 minutes, and we 
will come back. If any members wish to ask questions, please 
come back at that time.
    [Recess.]
    The Chairman.  Ladies and gentlemen, thank you so much for 
sticking around. The unpredictability of the House floor 
schedule is something that is ultimately an adjustment that 
each of us has to make to our own lives, and the vagaries are 
so unpredictable they do lead to discomfort not only for 
witnesses and for those in the audience, but also for the 
members of Congress themselves. We will let it stay there.
    We will now turn--and I will recognize myself for a round 
of questions for five minutes. If any members come, then they 
will be recognized. And if they don't, that will be the 
conclusion of the hearing.
    For all the witnesses, we have seen a number of analyses 
projecting large numbers of jobs that the green economy can 
create. From your work in your communities, what policies are 
needed to make green collar jobs live up to their potential? 
Mr. Thelen?
    Mr. Thelen.  I think the first thing we have to do is--and 
I am coming from a background of working in workforce 
development and career development--is help all of us 
practitioners understand what is the skill set necessary for 
these green jobs. How are we going to communicate to people the 
difference between these green jobs and a traditional job, 
i.e., let us say a construction worker? How are we going to 
help that construction worker know what additional set of 
skills they need to function in this new environment? And one 
of the roles of the Federal Government should be is to provide 
us good data on these emerging jobs.
    The Chairman.  Mr. Jones, do you think because Germany and 
Japan don't have any oil or natural gas that their adoption of 
this green collar agenda is something that comes more naturally 
to them, but here in America, the oil, the gas, the coal 
industry, serves as a powerful counterbalance, so that we don't 
make the transition and ultimately we could lose these job 
opportunities to other countries?
    Mr. Jones.  You know, American exceptionalism is always a 
mystery in any number of directions. So it is hard for me to 
know. What I do know is that the opportunity that we have for--
--
    The Chairman.  I think you do know, Mr. Jones.
    Mr. Jones.  Okay. Well----
    [Laughter.]
    Mr. Jones [continuing]. Not in the time that we have 
remaining. A couple of things which were raised earlier and 
weren't fully addressed, just to make sure that we get them. 
Number one, the workforce development stuff does need to have 
business and labor and community at the table. Number two, each 
community will be different. The green economy in North 
Carolina will look very difficult than it looks in California, 
and so we do need to make sure that each community is able to 
design its own strategy with support from the Federal 
Government.
    The Chairman.  Great.
    Ms. Barboza, what is the single biggest problem in your 
mind in ensuring that these jobs actually get to the workers 
who are the next generation of blue collar/green collar 
workers? In your mind, what is the single biggest obstacle?
    Ms. Barboza.  I think workforce development, training and 
workforce development dollars. So I think that a lot of--the 
question right now is: who pays, right? So is it the employer? 
Is it the government? Is it the workers or the unemployed 
themselves?
    So I think that that is really one of the biggest--it is 
going to take some time to do, and that is one of the biggest 
barriers is thinking through a workforce development strategy 
that is in collaboration with a larger economic strategy or 
with a regional economic strategy.
    The Chairman.  Mr. Thelen, you are from Michigan?
    Mr. Thelen.  Yes, sir.
    The Chairman.  There are obviously a large pool of skilled 
manufacturing workers there. Have you seen any gravitational 
pull towards Michigan, trying to take advantage of these 
manufacturing job skills that already exist in terms of new 
companies starting up there and trying to move into these new 
energy technologies?
    Mr. Thelen.  Yes, we have. Just two days ago there was a 
large article in our State Journal, Lansing State Journal, our 
paper, talking about a manufacturing company that had been 
aggressive and they make housings for cars, parts for cars, and 
they were just awarded a contract that would allow them to hire 
200 people because they are now making--they are making the 
same types of parts for large wind farms. And so we have seen 
that.
    We have also seen a large company that is now--or a startup 
company that is making special shingles that can be used for 
solar energy. So we are starting to see that. I think it is a 
difficult transition for some of us.
    The Chairman.  Here is what I am going to do. I am going to 
give each one of you one minute to summarize what you want the 
Subcommittee--the Select Committee on Energy Independence and 
Global Warming to know about your testimony and what you want 
us to retain in our minds as we are moving forward this year.
    Mr. Jones, whenever you are ready, please begin.
    Mr. Jones.  Thank you. First, I want to enter into the 
record these two reports. One is called Community Jobs in the 
Green Economy. That was done by the Apollo Alliance and Urban 
Habitat, for which I wrote the forward. And the other is New 
Energy for Cities, also by the Apollo Alliance. This really 
answers many of the questions that came up, and I just want to 
make sure they are----
    The Chairman.  So in a way, I didn't make a mistake. You 
are being Mr. Ringo right now.
    Mr. Jones. Exactly. [Laughter.]
    The Chairman.  Without objection, it will be entered in the 
record.
    And let me then recognize you, Mr. Jones.
    Mr. Jones.  Good, thank you so much. So, and I am happy to 
do that for him.
    The other things I think are important--I think that we 
need a paradigm shift in our discussion about environmental 
solutions. The first shift is away from talking about 
environmental problems, talking about environmental solutions 
more, which I think we are well on the way to. But the other is 
to think every environmental solution that comes across your 
radar screen, if you would subject it to the lens, where are 
the jobs, how can we use this to increase jobs for poor people, 
wealth-building opportunities, entrepreneurial opportunities 
for poor people, improve health for poor people?
    If we just begin to apply that lens to the entire 
discussion, I think it will radically transform the way that 
the public as a whole relates to this. Eco-elitism, for lack of 
a better term, will not save this country. Eco-populism, as a 
strategy that says we are going to pull the country together to 
solve the toughest problem ever, finally unleash American 
ingenuity on this problem, to your earlier point, I think is a 
majoritarian strategy for uniting the country.
    The Chairman.  So eco-elitism, bad.
    Mr. Jones.  Eco-populism----
    The Chairman.  Eco-populism, good.
    Mr. Jones.  Good.
    The Chairman.  And eco-entrepreneurs, excellent.
    Mr. Jones.  Excellent.
    The Chairman.  Ms. Barboza.
    Ms. Barboza.  I also want to enter into the record three 
different studies on training in the sectorial industries, and 
looking at--so three things. One is we have a study coming out 
called Green Cities, Green Jobs that is going to look at Los 
Angeles as a case study. Also, as a case study to look at 
policy financing.
    We also have another study called Under the Line that looks 
at L.A. employment and the training needs for Los Angeles 
communities, as well as lessons from a Career First Program, 
which brought together public sector jobs with people on 
assistance. And those are models that we can learn from and do 
large--have a larger impact on the work that we are doing now 
with green jobs and the green industry.
    I just want you to know that the decisions, the federal 
policy, the discussions that are happening right now impact 
real lives and impact real families and on a very large scale. 
So we have the opportunity to do something here that is going 
to change generations, and just as the manufacturing industry 
did for our generation and our communities. And so I would just 
ask you to think big.
    The Chairman.  Will do. Thank you, Ms. Barboza.
    And you have the final word, Mr. Thelen.
    Mr. Thelen.  Thank you. It will be short. I think the--I 
will go back to I think what the Federal Government should be 
doing is bringing together this information and ensuring those 
of us who work in the field have a clear understanding of, 
number one, what do we mean by green jobs, and, number two, 
what is the next step? What is the call to action that we in 
the field should be doing to help our young people understand 
these new opportunities? Because they are the ones who are 
going to benefit the most from this, and so that is what I 
would hope.
    I don't like my information to come from a biased source. I 
trust the information that comes out by labor market 
individuals, and that is what I would like to see.
    The Chairman.  I thank you, Mr. Thelen. I think you are 
right on the money. I think our panel is right on the money. We 
are at the dawn of a revolution. Actually, it has already 
begun, and it is driven by the green generation. This younger 
generation does understand it. They do understand that it is a 
huge issue that we have to deal with and that the solutions are 
available. Our job is to make this transition in an effective 
way.
    When the old economy was dying in Ireland, my young 
grandparents got on a boat and headed for the United States of 
America, right into the mills of this Industrial Revolution 
that was unfolding. But it kept moving along. Different 
resolutions just kept succeeding it.
    And so now it is our job not only to create this 
revolution, put in place the policies that make it possible for 
it to unfold in a telescope timeframe, but also prepare the 
workers of the country, so that we can move them in and so that 
we can capture the lion's share of the opportunity, which the 
global economy is going to present, because I think that this 
is going to become a global revolution, and we should be the 
leader and our workers should be the principal beneficiaries 
across the planet.
    We thank each of you for your testimony, and any other 
comments you wish to add will be included in the record.
    And with that, and with the thanks of the Committee, this 
hearing is adjourned.
    [Whereupon, at 5:21 p.m., the Committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 57967A.027
    
    [GRAPHIC] [TIFF OMITTED] 57967A.028
    
    [GRAPHIC] [TIFF OMITTED] 57967A.029
    
    [GRAPHIC] [TIFF OMITTED] 57967A.030
    
    [GRAPHIC] [TIFF OMITTED] 57967A.031
    
    [GRAPHIC] [TIFF OMITTED] 57967A.032
    
    [GRAPHIC] [TIFF OMITTED] 57967A.033
    
    [GRAPHIC] [TIFF OMITTED] 57967A.034
    
    [GRAPHIC] [TIFF OMITTED] 57967A.035
    
    [GRAPHIC] [TIFF OMITTED] 57967A.036
    

</pre></body></html>
